Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





NEW YORK STATE MEDICAID 

  FRAUD CONTROL UNIT:

   2011 ONSITE REVIEW





                        Stuart Wright

                  Deputy Inspector General for 

                   Evaluation and Inspections 


                          June 2012 

                        OEI-02-11-00440

EXECUTIVE SUMMARY: NEW YORK STATE MEDICAID FRAUD CONTROL UNIT,
2011 ONSITE REVIEW (OEI-02-11-00040)

WHY WE DID THIS STUDY

The Office of Inspector General is responsible for overseeing the activities of all Medicaid Fraud
Control Units (MFCU or Unit). As part of this oversight, the Office of Evaluation and
Inspections conducts periodic reviews of all Units and prepares public reports based on these
reviews. The reviews describe the Units’ caseloads; assess performance in accordance with the
12 MFCU performance standards, identifying any opportunities for improvement; identify any
instances of noncompliance with laws, regulations, or policy transmittals; and highlight any
noteworthy practices.

HOW WE DID THIS STUDY

We based our review on an analysis of data from seven sources: (1) a review of policies and
procedures and documentation on the Unit’s operations, staffing, and caseload; (2) structured
interviews with key stakeholders; (3) a survey of Unit staff; (4) structured interviews with the
Unit’s management; (5) an onsite review of case files; (6) an onsite review of financial
documentation; and (7) an onsite review of Unit operations.

WHAT WE FOUND

From fiscal years 2008 to 2010, the New York Unit filed criminal charges against more than
400 defendants, obtained over 400 convictions, and was awarded more than $750 million in
recoveries. Although the number of referrals to the Unit increased during this time, the number
of cases that the Unit opened and closed decreased. Additionally, the Unit did not establish
annual training plans for each of the three professional disciplines—i.e., for auditors,
investigators, or attorneys—and provided limited training opportunities to staff. The Unit also
lacked policies and procedures to reflect many of its current practices, and its case files lacked
consistency and uniform supervisory reviews. Finally, the Unit lacked a number of internal
controls. At the same time, our review found no evidence of significant noncompliance with
applicable laws, regulations, or policy transmittals. Further, Unit managers, staff, and
stakeholders cited a number of the Unit’s noteworthy practices, including its approach to patient
abuse and neglect cases, its list of ongoing investigations (created to avoid conflicts among
investigating agencies), and its use of technology.

WHAT WE RECOMMEND

We recommend that the New York MFCU: (1) seek to expand staff sizes to reflect the number
of staff approved in the Unit’s budget; (2) establish annual training plans and increase the
number of training opportunities available to staff; (3) ensure that its memorandum of
understanding, its policies, and its procedures reflect current practices; (4) ensure that its case
files are maintained with greater consistency and reviewed more frequently; and (5) establish
written policies and procedures for certain internal controls. The New York Unit concurred with
all five of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................6 

           From fiscal years 2008 to 2010, the New York Unit filed 

           criminal charges against more than 400 defendants, obtained 

           over 400 convictions, and was awarded more than $750 million 

           in recoveries .....................................................................................6 

           Although the number of referrals to the Unit increased, the
           number of cases the Unit opened and closed decreased ..................6 

           The Unit did not establish annual training plans and
           provided limited training opportunities to staff ...............................8 

           The Unit lacked policies and procedures to reflect many of its
           current practices ...............................................................................9 

           Case files lacked consistency and uniform supervisory
           reviews ...........................................................................................10 

           Although no major concerns were identified in the Unit’s 

           financial oversight, the Unit lacked a number of internal                                  

           controls...........................................................................................11

           Managers, staff, and stakeholders cited a number of
           noteworthy practices ......................................................................12 

Conclusion and Recommendations ............................................................15 

            Unit Comments.............................................................................17 

Appendixes ................................................................................................18 

           A: Performance Standards for Medicaid Fraud Control Units .....18 

           B: Investigations Opened and Closed by Provider Category,

           Fiscal Years 2008 to 2010 ..............................................................22 

           C: Confidence Interval Estimates Based on Case File Review 

           Data ................................................................................................24 

           D: Unit Comments ........................................................................25 

Acknowledgments......................................................................................35 

                  OBJECTIVES
                  To conduct an onsite review of the New York Medicaid Fraud Control
                  Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate and prosecute Medicaid provider fraud and patient abuse and
                  neglect under State law.1 Under the Medicaid statute, each State must
                  maintain a certified Unit unless the Department of Health and Human
                  Services (HHS) determines that operation of a Unit would not be
                  cost-effective because minimal Medicaid fraud exists in that State and that
                  the State has other adequate safeguards to protect Medicaid beneficiaries
                  from abuse and neglect.2 Currently, 49 States and the District of Columbia
                  have created such Units.3 In fiscal year (FY) 2011, HHS and the States
                  spent a combined total of $208.6 million on these Units. Of this amount,
                  $40.5 million, or 19.4 percent of the total, was spent on the New York
                  Unit.4
                  Each Unit must employ sufficient staff consisting of at least an
                  investigator, an auditor, and an attorney to carry out its duties and
                  responsibilities in an effective and efficient manner.5 The staff review
                  complaints provided by the State Medicaid agency and other sources and
                  determine their potential for criminal prosecution. Collectively, in
                  FY 2011 the 50 Units obtained 1,230 convictions as well as 906 civil
                  settlements or judgments.6 That year, the Units reported recoveries of
                  more than $1.7 billion.7
                  Units are required to have either Statewide authority to prosecute cases or
                  formal procedures to refer suspected criminal violations to an office with

                  1
                    Social Security Act § 1903(q). 

                  2
                    Social Security Act §§ 1902(a)(61) and 1903(q)(3). Regulations in 42 CFR § 1007.11(b)(1) 

                  add that the Unit’s responsibilities may include reviewing complaints of misappropriation of 

                  patients’ private funds in residential health care facilities. For the purposes of this study, 

                  misappropriation of patient funds is combined with patient abuse and neglect. 

                  3
                    North Dakota and the territories of American Samoa, Guam, the Northern Mariana Islands, 

                  Puerto Rico, and the U.S. Virgin Islands have not established Units. For the purposes of this 

                  review, we refer to the District of Columbia as a State. 

                  4
                    Office of Inspector General (OIG) analysis of Office of Management and Budget Forms 

                  SF-269 for FY 2011. 

                  5
                    Social Security Act § 1903(q)(6); 42 CFR § 1007.13. 

                  6
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2011 Grant Expenditures and 

                  Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2011.asp on June 14, 2011. 

                  7
                    Ibid.


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                            1
                  such authority.8 In 43 States, the Units are located within Offices of State
                  Attorneys General; in the remaining 7 States, the Units are located in other
                  State agencies and refer cases to other offices with prosecutorial
                  authority.9 Additionally, each Unit must be a single identifiable entity of
                  State government, distinct from the single State Medicaid agency, and
                  each Unit must develop a formal agreement, e.g., a memorandum of
                  understanding (MOU), that describes the Unit’s relationship with that
                  agency.10
                  Oversight of the MFCU Program
                  The Secretary of HHS delegated to OIG the authority both to annually
                  certify the Units and to administer grant awards to reimburse States for a
                  percentage of their costs in operating a certified Unit.11 All States
                  currently operating Units are reimbursed by the Federal Government on a
                  75-percent matching basis, with the States required to contribute the
                  remaining 25 percent.12 In order to receive Federal reimbursement, each
                  Unit must submit an initial application to OIG.13 OIG reviews the
                  application and notifies the Unit if the application is approved and the Unit
                  is certified. Approval and certification is for a 1-year period; the Unit
                  must be recertified each year thereafter.14
                  Under the Medicaid statute, States must operate Units that effectively
                  carry out their statutory functions and meet program requirements.15 To
                  clarify the criteria that OIG applies in assessing whether a Unit is
                  effectively carrying out these functions and meeting program
                  requirements, OIG developed and issued 12 performance standards.16
                  Examples include maintaining an adequate caseload through referrals from
                  several sources, maintaining an annual training plan for all three of the
                  professional disciplines (i.e., for auditors, investigators, and attorneys),


                  8
                  9 Social Security Act § 1903(q)(1).
                    In most States, the Unit shares responsibility for protecting the integrity of the Medicaid
                  program with the section of the State Medicaid agency that functions as the Program Integrity
                  Unit. Some States also establish an Office of Medicaid Inspector General that conducts and
                  coordinates fraud, waste, and abuse activities for the State agency.
                  10
                     Social Security Act § 1903(q)(2); 42 CFR § 1007.9(d).
                  11
                     The portion of funds reimbursed to States by the Federal Government for its share of
                  expenditures for the Federal Medicaid program, including the MFCUs, is called the Federal
                  Financial Participation (FFP).
                  12
                     Social Security Act § 1903(a)(6).
                  13
                     42 CFR § 1007.15(a).
                  14
                     42 CFR §§ 1007.15(b) and (c).
                  15
                     Social Security Act § 1902(a)(61).
                  16
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-
                  control-units-mfcu/files/Performance%20Standards.pdf on November 22, 2011. OIG revised
                  these standards on June 1, 2012 (see 77 Fed. Reg. 77106). The standards referred to
                  throughout this report are those from 1994, which were in effect at the time of our review.


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                           2
                  and establishing policy and procedure manuals to reflect the Unit’s
                  operations. See Appendix A for a complete list of these performance
                  standards.
                  New York State MFCU
                  The New York Unit is located within the Office of the New York State
                  Attorney General and has the authority to prosecute Medicaid cases. At
                  the time of our review, it had 283 employees. The Unit is composed of
                  seven field offices located around the State. Although most of its staff
                  work on Medicaid fraud cases, the Unit also includes a Patient Protection
                  Section, which focuses exclusively on the investigation and prosecution of
                  patient abuse and neglect cases. The Unit also includes a Civil
                  Enforcement Division, which handles complex civil fraud investigations,
                  including qui tam (whistleblower) actions.
                  The Unit receives referrals of fraud, abuse, or neglect primarily from the
                  State Medicaid Agency, which includes the Office of the Medicaid
                  Inspector General. Other sources of referrals include law enforcement
                  agencies, the State Long Term Care Ombudsman, and other State
                  agencies. From FYs 2008 to 2010, the Unit received an average of
                  879 referrals each year.
                  When the Unit receives a referral, it makes a determination as to whether
                  it should be opened as a criminal or civil case, or whether it should be
                  referred to another agency. In addition to receiving referrals, the Unit may
                  generate its own cases. Once a case is opened, the Unit may close it
                  through criminal prosecution, civil action, or administrative action. The
                  Unit may also close a case if there is insufficient evidence or by referring
                  it to another agency.
                  Previous Review
                  In 2005, OIG conducted an onsite review of the New York Unit. Based on
                  the findings in that report, OIG recommended that the Unit develop
                  internal policies and procedures for conducting undercover investigations,
                  ensure that Unit equipment is not used by non-Unit staff to conduct
                  non-Medicaid related activities, reinstitute the annual training conferences
                  for its staff, and provide specialized training to investigators in its Patient
                  Protection Unit. The report also noted that the Unit should consider
                  recruiting and retaining more investigative staff with medical/technical
                  expertise.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)             3
                  METHODOLOGY
                  We based our review on an analysis of data from seven sources: (1) a
                  review of policies and procedures and documentation on the Unit’s
                  operations, staffing, and caseload; (2) structured interviews with key
                  stakeholders; (3) a survey of Unit staff; (4) structured interviews with the
                  Unit’s management; (5) an onsite review of case files; (6) an onsite review
                  of financial documentation; and (7) an onsite review of Unit operations.
                  We analyzed data from all seven sources to describe the caseload and
                  assess the performance of the Unit, identifying any opportunities for
                  improvement. We also analyzed the data to identify any instances in
                  which the Unit did not fully meet the performance standards or was not
                  operating in accordance with laws, regulations, or policy transmittals.17
                  Lastly, we identified the Unit’s noteworthy practices.
                  Data Collection and Analysis
                  Review of Unit documentation. We requested and reviewed policies and
                  procedures and documentation on the Unit’s operations, staffing, and
                  caseload, including its annual reports, quarterly statistical reports, and
                  responses to recertification questionnaires. We also requested and
                  reviewed the Unit’s data describing how it detects, investigates, and
                  prosecutes Medicaid cases. Data collected included information such as
                  the number of referrals received by the Unit and the number of
                  investigations opened and closed. We requested and reviewed these data
                  for the 3-year period of FYs 2008 to 2010.
                  Interviews with key stakeholders. We conducted structured interviews
                  with key stakeholders who were familiar with the operations of the Unit.
                  Specifically, we interviewed the Deputy Medicaid Inspector General in the
                  State Medicaid Agency, an official in the U.S. Attorney’s office, and the
                  Special Agent in Charge for OIG’s New York region.
                  Survey of Unit staff. We conducted an electronic survey of nonmanagerial
                  Unit staff. In total, we sent the survey to a simple random sample of 80 of
                  266 nonmanagerial staff. We received responses from 76 of them, a
                  95 percent response rate.18 Our questions focused on opportunities for
                  improvement and noteworthy practices of the Unit. The survey also
                  sought information about the Unit’s compliance with applicable laws and
                  regulations.


                  17
                     All relevant regulations, statutes, and policy transmittals are available online at 

                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp.

                  18
                     At the time of our review, there were 283 staff; we sent surveys to 80 nonmanagerial staff. 



New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                             4
                  Interviews with Unit management. We conducted onsite and
                  videoconference interviews with 17 Unit managers, including the Director
                  and Deputy Director of the Unit, the Regional Office Directors, and the
                  supervisors of the three professional disciplines.19 We asked these
                  managers to provide us with additional information needed to better
                  understand the Unit’s operations, as well as to identify opportunities for
                  improvement and noteworthy practices. We used the information obtained
                  from stakeholders and nonmanagerial staff to develop questions for the
                  onsite interviews with Unit management.
                  Onsite review of case files. We selected a simple random sample of
                  94 case files from the Unit’s 1,887 cases that were open at some point
                  during FYs 2008 to 2010. We reviewed the 94 sampled case files and the
                  Unit’s processes for monitoring the status and outcomes of cases.
                  Onsite review of financial documentation. We reviewed certain financial
                  documents from the Unit, such as the Unit’s equipment inventory and
                  purchase records, to determine compliance with applicable laws and
                  regulations, as well as to determine whether additional internal controls
                  were needed.
                  Onsite review of Unit operations. While onsite, we reviewed the Unit’s
                  operations, including its process for receiving referrals, its electronic case
                  management system, its method for case file storage and security, and its
                  general operations.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  19
                    We interviewed all 11 of the Unit’s managerial staff and 6 of the Unit’s 24 supervisors.
                  These 17 Unit managers and supervisors will hereinafter be referred to as “managers.”


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                           5
                  FINDINGS
                  From FYs 2008 to 2010, the New York Unit filed
                  criminal charges against more than 400 defendants,
                  obtained over 400 convictions, and was awarded more
                  than $750 million in recoveries
                  From FYs 2008 to 2010, the Unit filed criminal charges against
                  452 defendants, of which 332 were charged with provider fraud and
                  120 were charged with patient abuse and neglect. The Unit also obtained
                  423 convictions during this 3-year period.20 Further, it obtained monetary
                  settlements and court orders requiring the payment of $753.9 million,
                  including $29.5 million in criminal restitution.
                  Additionally, as part of its efforts against patient abuse and neglect, the
                  Unit used hidden cameras to uncover and deter the criminal abuse and
                  neglect of nursing home residents. In 2010, for example, the Unit reported
                  that 22 health care workers from 2 nursing homes were charged using
                  evidence from hidden camera investigations and 10 convictions were
                  obtained in these and prior hidden camera cases.

                  Although the number of referrals to the Unit increased,
                  the number of cases the Unit opened and closed
                  decreased
                  According to the performance standards, the Unit should maintain an
                  adequate workload through referrals from the single State agency and
                  other sources. The Unit should also have a continuous case flow. As
                  noted earlier, the Unit receives referrals from the State Medicaid Agency
                  which includes the Office of Medicaid Inspector General as well as a
                  variety of other sources, such as law enforcement agencies, the State Long
                  Term Care Ombudsman, and other State agencies. From FYs 2008 to
                  2010, the number of referrals received by the Unit increased by
                  22 percent—from 770 to 940. (See Table 1.)




                  20
                     These 423 convictions are not necessarily derived from the 452 charges of criminal fraud
                  filed during the same period. Some of these convictions may have derived from criminal
                  charges that occurred prior to the 3-year period. Similarly, not all of the criminal charges
                  from this 3-year period may have resulted in convictions during this period.


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                           6
                    Table 1: Unit Referrals from FYs 2008 to 2010, by Type
                    Type of Investigation                                FY 2008       FY 2009        FY 2010

                    Fraud                                                   352            446             470

                    Patient Abuse and Neglect                               418            481             470

                    Total                                                   770            927             940

                  Source: OIG analysis of New York MFCU data, 2011 .

                  When a referral is received, the Unit makes a determination as to whether
                  it should be opened as a criminal or civil case, or whether it should be
                  referred to another agency.21 Over the past 3 years, the number of cases
                  the Unit opened decreased by 25 percent. In FY 2008, the Unit opened
                  421 cases, compared to 316 in FY 2010. (See Table 2.)

                    Table 2: Cases Opened from FYs 2008 to 2010, by Type*
                    Type of Investigation                                FY 2008       FY 2009        FY 2010

                    Fraud                                                   376            342             279

                    Patient Abuse and Neglect                                45              63             37

                    Total                                                   421            405             316
                  *Includes only new cases opened during the FY.
                   Source: OIG analysis of New York MFCU data, 2011  .

                  Once a case is opened, the Unit may close it through criminal prosecution,
                  civil action, or administrative action. The Unit may also close a case if
                  there is insufficient evidence or by referring it to another agency. Since
                  FY 2008, the number of cases closed by the Unit decreased by 20 percent.
                  In FY 2008, the Unit closed 364 cases, compared to 291 in FY 2010. (See
                  Table 3.) See Appendix B for information about the Unit’s cases by
                  provider category.

                    Table 3: Cases Closed from FYs 2008 to 2010, by Type
                    Type of Investigation                                FY 2008       FY 2009        FY 2010

                    Fraud                                                   311            288             244

                    Patient Abuse and Neglect                                53              49             47

                    Total                                                   364            337             291

                   Source: OIG analysis of New York MFCU data, 2011  .


                  21
                     When the Unit encounters an issue outside of its regulated activities, it makes referrals to
                  other agencies. The Unit most commonly sent referrals to the State Medicaid Agency, other
                  State agencies, or private health insurers.


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                              7
                  Several managers and staff attributed the decreases in their overall
                  caseload to a decrease in the Unit’s staff and funding during this 3-year
                  period. According to the performance standards, the Unit should maintain
                  staff levels in accordance with staffing allocations approved in its budget.
                  As a part of its oversight role, OIG approves the number of staff requested
                  by the Unit in its annual budget.22 At the time of our review, the Unit
                  employed 283 staff members—a 16 percent decline from FY 2008 when
                  the Unit employed 336 staff members. Additionally, the Unit’s staff
                  levels were significantly below the number of staff that the Unit requested
                  and OIG approved. For example, in FY 2010, the Unit employed 306 staff
                  members, even though the Unit requested and OIG approved funding for
                  380 positions.
                  Several managers attributed the decline in staff levels to State budget
                  constraints and acknowledged the effect this has had on the Unit.
                  According to one manager, “There are cases we probably should do but
                  can’t because we don’t have the manpower; we have to refer them back.”
                  In addition to the decline in the Unit’s staffing, the Unit has also seen a
                  decline in its funding from the State, which has affected the Unit’s total
                  annual expenditures. For example, from FYs 2009 to 2010, the Unit’s
                  expenditures fell by18 percent, dropping from $49.6 million to
                  $40.5 million.

                  The Unit did not establish annual training plans and
                  provided limited training opportunities to staff
                  According to the performance standards, the Unit should establish annual
                  training plans for each of the three professional disciplines. The training
                  provided under these plans should aid the mission of the Unit. Managers
                  acknowledged that the Unit did not have annual training plans for any of
                  these disciplines; however, several noted that doing so would be useful for
                  the Unit.23 As one manager noted, “No question it would be helpful… It
                  would be good to expand [staff] knowledge.”
                  Several managers also stated that few training opportunities have been
                  available for staff in recent years. Almost half of the Unit’s staff surveyed
                  reported that there was a need for additional training to improve the

                  22
                     The Units are reimbursed by the Federal Government at a 75-percent matching rate.
                  23
                      Although we reviewed training records, we did not evaluate the staff’s professional
                  qualifications. Rather, we applied the performance standards to evaluate whether the Unit
                  maintained a formal training plan for each professional discipline, as well as training
                  opportunities specific to MFCU operations. We recognize that attorneys, investigators, and
                  auditors receive professional and law enforcement training, and that the lack of an annual
                  training plan does not necessarily mean that professional staff are unqualified.


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                          8
                  overall management, operations, or performance of the Unit. For
                  example, prior to 2008, the Unit held separate training conferences for
                  each of the three disciplines; however, over the last 4 years, the Unit has
                  not held such trainings. Additionally, prior to 2003, the Unit held regular
                  multidisciplinary training conferences, which brought together staff of all
                  disciplines from across the State. Unit managers attributed the lack of
                  such training to State budget restrictions, rather than a lack of interest by
                  the Unit.
                  Many staff and managers called for the reinstatement of annual training
                  conferences and other training opportunities. As one manager noted, “We
                  have experienced staff, but we are also consistently confronted with new
                  and novel areas.” Several managers and numerous staff stated that the
                  lack of training from FYs 2008 to 2010 presented a significant morale
                  problem for staff and also contributed to difficulties in retaining staff.
                  Managers anticipated that additional training will be offered in the
                  upcoming years; one manager noted that training is a priority for the
                  present State Attorney General’s Office.

                  The Unit lacked policies and procedures to reflect
                  many of its current practices
                  According to the performance standards, the Unit should establish policies
                  and procedures for its operations. These policies and procedures should
                  reflect current practices within the Unit. At the time of our review, the
                  Unit did not have an MOU with the State Medicaid Agency that reflected
                  key legislative changes, including the June 2006 establishment of the
                  Office of the Medicaid Inspector General. The Unit also lacked updated
                  procedures manuals that clearly describe staff roles and responsibilities for
                  each of the three professional disciplines. In addition, it had no policies
                  governing the maintenance of case files.
                  MOU. According to the performance standards, the Unit should
                  periodically review its MOU with the State agency and seek amendments
                  as necessary to ensure it reflects current law and practice. However, the
                  Unit’s MOU was last updated in 2005 and did not include any reference to
                  the Office of the Medicaid Inspector General, nor did it reflect the
                  enactment of the State’s false claims act. Although the Unit and the State
                  Medicaid Agency have worked on amending the MOU, one manager
                  stated that they have not been able to complete negotiations because of
                  leadership changes—in the Unit, the Attorney General’s Office, and the
                  State Medicaid Agency, including the Office of the Medicaid Inspector
                  General—that occurred during the period of review.



New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)            9
                  Procedures Manuals. The performance standards state that the Unit
                  should establish policies and procedures for its operations. However, the
                  Unit did not have a procedure manual for its auditors and its manuals for
                  attorneys and investigators were out of date; investigator manuals were
                  more than 7 years old and attorney manuals were more than 10 years old.
                  Because of their age, these manuals lacked information about key changes
                  to the Unit’s operations, such as the Unit’s increased reliance on electronic
                  data management. Managers cited the lack of updated manuals and
                  acknowledged the need to update them.
                  Several managers emphasized the importance of having current policies
                  and procedure manuals and noted their value when experienced managers
                  or staff retire or leave the Unit. In addition, one staff member expressed
                  what it was like to be a new employee: “I know that I felt absolutely
                  clueless about any policy and procedures for quite some time, and still run
                  into situations where I [am] expected to know something but have not
                  been told the way things normally work.”
                  Case File Policies. The Unit did not have written policies governing the
                  maintenance of case files. Several staff acknowledged the need for written
                  policies or guidelines governing case files. As discussed below, variation
                  in how the Unit maintains its case files further demonstrates the need for
                  such policies.

                  Case files lacked consistency and uniform
                  supervisory reviews
                  According to the performance standards, the Unit should complete cases
                  within a reasonable timeframe. As a part of this effort, supervisors should
                  approve the opening and closing of cases and note any supervisory case
                  reviews in the case file. The Unit’s case files, however, had inconsistent
                  documentation of both the opening and closing of cases and supervisory
                  reviews.
                  Most notably, case files did not always contain documentation on the
                  opening or closing of the case. Specifically, 10 percent of all case files
                  were missing any form of an opening memorandum, and 7 percent of the
                  closed case files did not include a closing memorandum detailing the case
                  closure. In addition, supervisory reviews were not consistently noted in
                  the case files. In fact, almost half of the case files (48 percent) did not
                  include any documentation indicating at least one supervisory review




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)           10
                  between the opening and closing of the case.24 See Appendix C for
                  confidence intervals.
                  When asked how to improve the Unit’s overall management, operations,
                  and performance, a number of staff called for increased case reviews or
                  improved case management. One staff member noted that “having case
                  reviews more frequently would help keep all parties involved in a case on
                  the same track and informed. [A] case that isn’t moving quickly can be
                  forgotten and these reviews get the parties thinking about it again.”
                  Managers indicated that although they periodically review cases, no
                  policies or guidelines currently exist governing their review. Managers
                  acknowledged that the frequency of such reviews has historically been left
                  to the discretion of relevant managers, and that this is an area warranting
                  formal policy.
                  Finally, our review of the Unit’s case files uncovered one instance of the
                  Unit pursuing a case that did not involve allegations of fraud in the
                  administration of the Medicaid program, in the provision of Medicaid
                  services, or in the activities of Medicaid providers. To receive Federal
                  funding, fraud investigations must involve one of these three activities.25
                  The Unit is working with OIG to repay the grant for the time spent on the
                  case.

                  Although no major concerns were identified in the
                  Unit’s financial oversight, the Unit lacked a number of
                  internal controls
                  According to the performance standards, the Unit should exercise proper
                  fiscal control over its resources. Although we identified no major
                  concerns, our review of the Unit’s financial systems identified a lack of
                  internal controls over purchase cards, reconciliation of accounting records,
                  and vehicle sale and transfer. Within each of these areas, the Unit lacked
                  certain policies and procedures necessary to mitigate the risk of error or
                  fraud.
                  Notably, the Unit lacked internal controls over the authorization and
                  payment of purchase cards. The same staff member was responsible for
                  authorizing purchase card accounts, approving purchase card
                  expenditures, directly receiving purchase card statements, and making


                  24
                     Unit managers stated that a lack of documentation of supervisory review in case files does
                  not necessarily indicate that the review did not take place. According to these managers, all
                  major events in a case are subject to supervisory approval. They considered the lack of
                  documentation to be an issue of case file management.
                  25
                     Social Security Act § 1903(q)(3); 42 CFR § 1007.11(a).


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                           11
                  purchase card payments. The Unit did not have any policies and
                  procedures to segregate the authorization, custody, and recordkeeping
                  functions for purchase cards.
                  Additionally, the Unit lacked written policies and procedures to formalize
                  its accounting process. Due to limitations in the State’s accounting
                  software, the Unit’s financial staff must manually enter data into a
                  separate accounting subsystem.26 This accounting subsystem is used to
                  track Federal funds and to report expenditures on OIG’s Financial Status
                  Report. At the time of our onsite review, staff were unable to provide
                  sufficient documentation for several expenditures in the accounting
                  subsystem.
                  Finally, prior to our onsite review, the Unit identified and alerted OIG to a
                  lack of internal controls over the sale and transfer of vehicles. During the
                  period under review, Unit vehicles that were no longer needed were
                  transferred to the New York State Department of General Services for
                  auction or transfer to another State agency, and the Unit did not receive the
                  proceeds of the sale or transfer.27 The Unit lacked written policies and
                  procedures for determining and documenting the value of vehicles and for
                  appropriately accounting for their sale or transfer to ensure that the
                  Federal Government was reimbursed accordingly. Since identifying the
                  issue, the Unit has worked with OIG to develop an adequate model for
                  determining the value of vehicles and has reimbursed the Federal
                  Government accordingly.

                  Managers, staff, and stakeholders cited a number of
                  noteworthy practices
                  Managers, staff, and stakeholders familiar with the Unit’s operations
                  highlighted a number of noteworthy practices. These practices include its
                  approach to patient abuse and neglect cases, its list of ongoing
                  investigations (created to avoid conflicts among investigating agencies),
                  and its use of technology.
                  The Unit’s approach to patient abuse and neglect cases. Virtually all of
                  the Unit’s stakeholders and numerous managers and staff cited the Unit’s
                  approach to patient abuse and neglect cases as a noteworthy practice.
                  Managers, staff, and stakeholders highlighted the establishment of a


                  26
                     We learned during our discussions with Unit accounting staff that the State of New York is
                  developing new accounting software that may address some of our concerns.
                  27
                     Prior to our review, the Unit was decommissioning vehicles without determining the fair
                  market value, which is necessary to ensure that any Federal reimbursement is identified and
                  returned.


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                           12
                  separate Patient Protection Unit as important to the Unit’s success in this
                  area. One Unit manager noted that when the Unit separated patient abuse
                  and neglect cases into a distinct unit, staff no longer felt pressured into
                  prioritizing multimillion-dollar fraud cases over these cases. This resulted
                  in additional resources and expertise being devoted to patient abuse and
                  neglect cases.
                  Multiple parties cited other practices related to patient abuse and neglect
                  cases, including the use of hidden cameras in nursing homes and the use of
                  nurse analysts employed by the Unit. Many staff surveyed mentioned the
                  use of hidden cameras, which the Unit installs in nursing home residents’
                  rooms with the consent of the residents’ families. Specifically, one staff
                  member noted, “I believe that we are one of the first Units to implement
                  the use of hidden cameras in nursing facilities. This has proven very
                  effective in attempts to curtail neglect, abuse, and mistreatment of
                  residents.” One manager agreed, attributing a drop in neglect cases to “a
                  real change in the behavior of some of the nursing homes [as a result of
                  the hidden camera cases].” Unit managers also cited the use of nurse
                  analysts as important to the success of such cases. In the Unit, nurse
                  analysts provide medical expertise to the case, including reviewing hidden
                  camera data. According to one manager, “All of our medical analysts are
                  nurses and worked with nursing homes before they came here. Having
                  that knowledge in-house is key.”
                  The Unit’s list of ongoing investigations. To avoid conflicts among
                  investigating agencies, the Unit created a list of names associated with
                  ongoing investigations. The Unit shares this list with the Office of the
                  Medicaid Inspector General and helps facilitate communication about
                  ongoing investigations. As part of its investigations, the Office of the
                  Medicaid Inspector General checks this list and contacts the Unit to obtain
                  information about investigation status. Unit managers believe that the list
                  reduces the likelihood that an ongoing investigation will be compromised
                  by another investigation. One manager also noted that this list will be
                  helpful in instituting the new payment suspension rules mandated by the
                  Affordable Care Act, which permit the State Medicaid agency to suspend
                  payment in cases of suspected fraud identified by the Unit or by the Office
                  of the Medicaid Inspector General.28
                  The Unit’s use of technology. Many managers, staff, and stakeholders also
                  highlighted the Unit’s innovative use of technology. Specifically, the Unit
                  established a group of staff called the Electronic Investigative Support

                  28
                    The Patient Protection and Affordable Care Act, P. L. 111-148, § 6402(h)(2), amending
                  Social Security Act § 1903(i)(2) and implemented in 42 CFR § 455.23.


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                        13
                  Group that is dedicated to providing technical assistance throughout a
                  case. As one staff member noted, “The Unit added specialists, including
                  electronic data [and] systems technicians, computer forensic specialists,
                  and clinical specialists. This team approach is essential to the success of
                  the Unit.” Another added, “[The Electronic Investigative Support Group]
                  created a discovery team along with procedures that our attorneys follow
                  when collecting electronically stored information. It has worked very well
                  and has saved our unit a lot of time and money.” Others highlighted the
                  group’s expertise in assisting in undercover operations, such as the Unit’s
                  hidden camera cases, discussed above.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)         14
                  CONCLUSION AND RECOMMENDATIONS
                  From FYs 2008 to 2010, the Unit filed criminal charges against more
                  than 400 defendants, obtained over 400 convictions, and was awarded
                  more than $750 million in recoveries. Although the number of referrals to
                  the Unit increased during this time, the number of cases that the Unit
                  opened and closed decreased. Additionally, the Unit did not establish
                  annual training plans for each of the three professional disciplines and
                  provided limited training opportunities to staff. The Unit also lacked an
                  up-to-date MOU with the State Medicaid agency, as well as policies and
                  procedures to reflect many of its current practices. Further, its case files
                  lacked consistency and uniform supervisory reviews. Finally, the Unit
                  lacked certain internal controls with respect to purchase cards,
                  reconciliation of accounting records, and vehicle sale and transfer. At the
                  same time, our review found no evidence of significant noncompliance
                  with applicable laws, regulations, or policy transmittals. In addition, Unit
                  managers, staff, and stakeholders cited a number of the Unit’s noteworthy
                  practices, including its approach to patient abuse and neglect cases, its list
                  of ongoing investigations (created to avoid conflicts among investigating
                  agencies), and its use of technology.
                  Based on these findings, we recommend that the New York MFCU:
                  Seek to expand staff sizes to reflect the number of staff
                  approved in the Unit’s budget
                  The Unit should seek to maintain staff levels in accordance with staffing
                  allocations requested by the Unit and approved by OIG.
                  Establish annual training plans and increase the number of
                  training opportunities available to staff
                  The Unit should develop formal training plans that indicate the type and
                  duration of training expected each year for employees in each professional
                  discipline. The Unit should also provide additional training opportunities
                  and consider reinstituting the annual training conferences.
                  Ensure that the MOU, policies, and procedures of the Unit
                  reflect current practices
                  The Unit should update its MOU with the State agency so that it addresses
                  recent changes, such as the establishment of the Medicaid Inspector
                  General and the State false claims act. The Unit should also develop
                  up-to-date policies and procedures manuals for each professional
                  discipline and for the maintenance of case files.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)            15
                  Ensure greater consistency in how case files are maintained
                  and increase the frequency and documentation of supervisory
                  reviews
                  Unit supervisors should periodically review case files to ensure they
                  include all necessary documentation. Additionally, supervisors should
                  include notation of such reviews in the case files, to ensure timely
                  investigation, prosecution, and closure of cases.
                  Establish written policies and procedures for controls over
                  (1) purchase cards, (2) reconciliation of accounting records,
                  and (3) the sale and transfer of vehicles
                  The Unit should develop and disseminate written policies and procedures
                  for purchase cards to ensure that staff responsible for acquiring cards are
                  not the same staff responsible for paying them. The Unit should also
                  develop an electronic means of maintaining accounting records. Finally,
                  the Unit should develop policies and procedures for decommissioning its
                  vehicles in accordance with Federal regulations.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)          16
                  UNIT COMMENTS
                  The New York State Unit concurred with all five of our recommendations
                  and provided a detailed plan for how it will implement each of them.
                  The Unit concurred with our recommendation to expand its staff to reflect
                  the number approved in the Unit’s budget. The Unit reported that it has
                  already hired additional staff members and that vigorous recruitment
                  efforts are continuing.
                  The Unit also agreed with our recommendation to establish annual training
                  plans and to increase the number of training opportunities available to
                  staff. The Unit has implemented annual training plans based on a
                  “credit-hour” model to give it more flexibility in uncertain budget times
                  and has established training committees for each of the professional
                  disciplines.
                  The Unit agreed with our recommendation to ensure that the MOU,
                  policies, and procedures of the Unit reflect current practices. The Unit
                  expects that an updated MOU with the State agency and the State’s Office
                  of the Medicaid Inspector General will be in place by July 2012; the Unit
                  also reports that it is revamping its approach to maintaining its policy
                  statements, and anticipates that an easily accessible and updateable
                  electronic system will be completed by August 2012.
                  The Unit concurred with our recommendation to ensure greater
                  consistency in how case files are maintained and to increase the frequency
                  and documentation of supervisory reviews. The Unit states that it has
                  created several new approaches to electronic files that will be integrated
                  with its software used for investigative work.
                  Finally, the Unit concurred with our recommendation to establish written
                  policies and procedures for controls over (1) purchase cards,
                  (2) reconciliation of accounting records, and (3) the sale and transfer of
                  vehicles. The Unit noted that it is revising the handling of purchase cards
                  and that it has already adopted a solution to the vehicle disposition issue.
                  Also, now that a new Statewide accounting platform has been launched,
                  the Unit has plans for a records-maintenance system.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)           17
APPENDIX A
Performance Standards for Medicaid Fraud Control Units
[59 Fed. Reg. 49080, Sept. 26, 1994]
1. 	A Unit will be in conformance with all applicable statutes, regulations, and policy
    transmittals. In meeting this standard, the Unit must meet, but is not limited to, the
    following requirements:
    a.	 The Unit professional staff must consist of permanent employees working full-
        time on Medicaid fraud and patient abuse matters.
    b.	 The Unit must be separate and distinct from the single State Medicaid agency.
    c.	 The Unit must have prosecutorial authority or an approved formal procedure for
        referring cases to a prosecutor.
    d.	 The Unit must submit annual reports, with appropriate certifications, on a timely
        basis.
    e.	 The Unit must submit quarterly reports on a timely basis.
    f.	 The Unit must comply with the Americans with Disabilities Act, the Equal
        Employment opportunity requirements, the Drug Free workplace requirements,
        Federal lobbying restrictions, and other such rules that are made conditions of the
        grant.
2. 	A Unit should maintain staff levels in accordance with staffing allocations
    approved in its budget. In meeting this standard, the following performance
    indicators will be considered:
    a.	 Does the Unit employ the number of staff that was included in the Unit’s budget
        as approved by [the Office of Inspector General (OIG)]?
    b.	 Does the Unit employ the number of attorneys, auditors, and investigators that
        were approved in the Unit’s budget?
    c.	 Does the Unit employ a reasonable size of professional staff in relation to the
        State’s total Medicaid program expenditures?
    d.	 Are the Unit office locations established on a rational basis and are such locations
        appropriately staffed?
3. 	A Unit should establish policies and procedures for its operations, and maintain
    appropriate systems for case management and case tracking. In meeting this
    standard, the following performance indicators will be considered:
    a.	 Does the Unit have policy and procedure manuals?
    b.	 Is an adequate, computerized case management and tracking system in place?


New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)          18
4. A Unit should take steps to ensure that it maintains an adequate workload
    through referrals from the single State agency and other sources. In meeting this
    standard, the following performance indicators will be considered:
    a.	 Does the Unit work with the single State Medicaid agency to ensure adequate
        fraud referrals?
    b.	 Does the Unit work with other agencies to encourage fraud referrals?
    c.	 Does the Unit generate any of its own fraud cases?
    d.	 Does the Unit ensure that adequate referrals of patient abuse complaints are
        received from all sources?
5. 	A Unit’s case mix, when possible, should cover all significant provider types. In
    meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit seek to have a mix of cases among all types of providers in the
        State?
    b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid patient abuse
        cases?
    c.	 Does the Unit seek to have a mix of cases that reflect the proportion of Medicaid
        expenditures for particular provider groups?
    d.	 Are there any special Unit initiatives targeting specific provider types that affect
        case mix?
    e.	 Does the Unit consider civil and administrative remedies when appropriate?
6. 	A Unit should have a continuous case flow, and cases should be completed in a
    reasonable time. In meeting this standard, the following performance indicators will
    be considered:
    a.	 Is each stage of an investigation and prosecution completed in an appropriate time
        frame?
    b.	 Are supervisors approving the opening and closing of investigations?
    c.	 Are supervisory reviews conducted periodically and noted in the case file?
7. 	A Unit should have a process for monitoring the outcome of cases. In meeting this
    standard, the following performance indicators will be considered:
    a.	 The number, age, and type of cases in inventory.
    b.	 The number of referrals to other agencies for prosecution.
    c.	 The number of arrests and indictments.
    d.	 The number of convictions.
    e.	 The amount of overpayments identified.

New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)          19
    f.	 The amount of fines and restitution ordered.
    g.	 The amount of civil recoveries.
    h.	 The numbers of administrative sanctions imposed.
8. 	A Unit will cooperate with OIG and other Federal agencies, whenever
    appropriate and consistent with its mission, in the investigation and prosecution
    of health care fraud. In meeting this standard, the following performance indicators
    will be considered:
    a.	 Does the Unit communicate effectively with OIG and other Federal agencies in
        investigating or prosecuting health care fraud in their State?
    b.	 Does the Unit provide OIG regional management, and other Federal agencies,
        where appropriate, with timely information concerning significant actions in all
        cases being pursued by the Unit?
    c.	 Does the Unit have an effective procedure for referring cases, when appropriate,
        to Federal agencies for investigation and other action?
    d.	 Does the Unit transmit to OIG, for purposes of program exclusions under section
        1128 of the Social Security Act, reports of convictions, and copies of Judgment
        and Sentence or other acceptable documentation within 30 days or other
        reasonable time period?
9. 	A Unit should make statutory or programmatic recommendations, when
    necessary, to the State government. In meeting this standard, the following
    performance indicators will be considered:
    a.	 Does the Unit recommend amendments to the enforcement provisions of the
        State’s statutes when necessary and appropriate to do so?
    b.	 Does the Unit provide program recommendations to single State agency when
        appropriate?
    c.	 Does the Unit monitor actions taken by State legislature or State Medicaid agency
        in response to recommendations?
10. 	A Unit should periodically review its memorandum of understanding (MOU)
    with the single State Medicaid agency and seek amendments, as necessary, to
    ensure it reflects current law and practice. In meeting this standard, the following
    performance indicators will be considered:
    a.	 Is the MOU more than 5 years old?
    b.	 Does the MOU meet Federal legal requirements?
    c.	 Does the MOU address cross-training with the fraud detection staff of the State
        Medicaid agency?



New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)       20
    d.	 Does the MOU address the Unit’s responsibility to make program
        recommendations to the Medicaid agency and monitor actions taken by the
        Medicaid agency concerning those recommendations?
11. The Unit director should exercise proper fiscal control over the Unit resources.
    In meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit director receive on a timely basis copies of all fiscal and 

        administrative reports concerning Unit expenditures from the State parent 

        agency? 

    b.	 Does the Unit maintain an equipment inventory?
    c.	 Does the Unit apply generally accepted accounting principles in its control of Unit
        funding?
12. A Unit should maintain an annual training plan for all professional disciplines.
    In meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit have a training plan in place and funds available to fully implement
        the plan?
    b.	 Does the Unit have a minimum number of hours training requirement for each
        professional discipline, and does the staff comply with the requirement?
    c.	 Are continuing education standards met for professional staff?
    d.	 Does the training undertaken by staff aid to the mission of the Unit?




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)       21
APPENDIX B
Fraud Investigations Opened and Closed by Provider Category, Fiscal Years 2008 to 2010
                                                              Fiscal Year (FY)
 Provider Category                                                                        FY 2009            FY 2010
                                                                         2008
 Facilities                                                 Opened    Closed     Opened   Closed    Opened   Closed
 Hospitals                                                      62         39        30       45        23        24
 Nursing facilities                                             48         67        38       48        16        19
 Other long-term care facilities                                 2          1         2        1         2         2
 Substance abuse treatment centers                               2          6         0        2         4          4
 Other                                                           6         33         7        6        16         10
 Practitioners                                              Opened    Closed     Opened   Closed    Opened   Closed
 Doctors of medicine or osteopathy                              13         29        11       18        12          8
 Dentists                                                        3          6         8        6         5          7
 Counselors/psychologists                                        3          2         5        4         5         3
 Other                                                           1          2         3        0         1          1
 Medical Support                                            Opened    Closed     Opened   Closed    Opened   Closed
 Pharmacies                                                     22         28        22       13        18        15
 Pharmaceutical manufacturers                                   59          5        39        6        73        35
 Durable medical equipment and/or suppliers                     25         26         5        5        17         5
 Laboratories                                                    3          0         2        1        10          3
 Transportation services                                        12          9        17        4         7        15
 Home health care agencies                                      30         25        44       22        21        24
 Home health care aides                                          6          2        22        5        15         13
 Nurses, physician assistants, nurse practitioners,
                                                                26         12        28       37        16         27
 certified nurse aides
 Radiologist                                                     0          0         3        0         3         1
 Medical support—other                                          37         11        37       50         2        13
 Program Related                                            Opened    Closed     Opened   Closed    Opened   Closed
 Managed care                                                    5          2         1        1         2          4
 Billing company                                                 1          0         0        2         0         0
 Other                                                          10          6        18       12        11         11
 Total All Provider Categories                                 376        311       342      288       279        244
      Source: New York Medicaid Fraud Control Unit, 2011.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                             22
Patient Abuse and Neglect Investigations Opened and Closed by Provider Category,
FYs 2008 to 2010

 Provider Category                                                 FY 2008            FY 2009            FY 2010

                                                          Opened   Closed    Opened   Closed    Opened   Closed
 Nursing facility                                              2        4         5        0         3        2
 Nondirect care                                                1        1         4        2         3        2
 Other long-term care                                          1        0         1        0         1        1
 Nurses, physician assistants, nurse
                                                              35       45        50       39        29       40
 practitioners, certified nurse aides
 Home health care aides                                        0        0         0        0         0        0
 Other                                                         6        3         3        8         1        2
 Total                                                        45       53        63       49        37       47
    Source: New York Medicaid Fraud Control Unit, 2011.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                             23
APPENDIX C
Confidence Interval Estimates Based on Case File Review
We estimated the following 3 population values for all 1,887 case files from the results of
our review of the 94 case files selected in our simple random sample. The table below
includes the estimate descriptions, sample sizes, point estimates, and 95-percent
confidence intervals for these 3 estimates.

Confidence Intervals for Key Case File Review Data
                                                        Estimate                                  95-Percent Confidence
 Data                                                                            Point Estimate
                                                       Description                                       Interval
 Case files missing an opening
                                                             94                        9.6%           4.5%–17.4%
 memorandum
 Case files missing a closing
                                                            57*                        7.0%           1.9%–17.0%
 memorandum
 Case files missing documentation
 indicating at least one supervisory                         94                       47.9%           37.5%–58.4%
 review

* Of the 94 cases reviewed, 57 were closed between fiscal years 2008 and 2010.
Source: Office of Inspector General analysis of Medicaid Fraud Control Unit case files, 2011.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)                                     24
APPENDIX D
Unit Comments




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   25
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   26
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   27
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   28
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   29
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   30
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   31
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   32
New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)   33
                  Conduslon

                  The New York MFCU appreciates the efforts of HR S-OIG and the Insight provided by
           the Onsite Review. We appreciate and concur with the recommendations. which will be
           implemented to the extent not already accomplished as we recover from the budgetary impact of
           the fmanc ial crisis. As the statistics demonstrated. MFCU achieved unprecedented results
           despite such obstacles. New York MFCU remains committed to meeting and exceeding the
           standards for Medicaid Fraud Control Units.




                                                      Respectfully submitted,


                                                           /S/
                                                     Monica 1. Hickey-Martin
                                                     Special Deputy Attorney General
                                                     Director, New York MFCU




                                                                                                      10




New York State Medicaid Fraud Control Unit 2011 Onsite Review (OEI-02-11-00440)                            34
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Jodi Nudelman, Regional
                  Inspector General for Evaluation and Inspections in the New York regional
                  office, and Meridith Seife, Deputy Regional Inspector General.
                  Vince Greiber served as the team leader for this study. Other Office of
                  Evaluation and Inspections staff from the New York regional office who
                  conducted the study include Hailey Davis. Central office staff who
                  provided support include Thomas Brannon and Christine Moritz.
                  Michael Henry of the San Francisco regional office also contributed to the
                  report. Office of Audit Services staff who contributed to the report include
                  Eileen Bechkes and Ryan Moul. Office of Investigations staff who
                  contributed to the report include LaTonya Coates, Michael Mahabir, and
                  Jason Weinstock.




New York State Medicaid Fraud Control Unit: 2011 Onsite Review (OEI-02-11-00440)          35
                Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal
support for OIG’s internal operations. OCIG represents OIG in all civil and administrative
fraud and abuse cases involving HHS programs, including False Claims Act, program
exclusion, and civil monetary penalty cases. In connection with these cases, OCIG also
negotiates and monitors corporate integrity agreements. OCIG renders advisory opinions,
issues compliance program guidance, publishes fraud alerts, and provides other guidance to
the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
